No. 20-291
IN THE

Supreme Court of the United States
JAMELL BIRT,
Petitioner,
v.
UNITED STATES,
Respondent.

____________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit
CERTIFICATE OF SERVICE
I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3 and 29.5 (as modified by the Court’s Order of April 15,
2020) that I have, this 5th day of October, 2020, served the Brief for the National
Association of Criminal Defense Lawyers as Amicus Curiae Supporting Petitioner
upon each party separately represented in this proceeding by causing an electronic
copy of the same to be delivered to counsel of record at the e-mail addresses listed
below:
Zachary Charles Schauf
ZSchauf@jenner.com
Counsel for Petitioner
Jeffrey B. Wall
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent

Pursuant to the Court’s April 15 Order, I certify that all parties have agreed
to accept such electronic service in lieu of service of paper copies. I further certify
that all persons required to be served have been served.
In addition, pursuant to Supreme Court Rule 29.7, I certify that I have
caused electronic copies of all documents to be filed with the Clerk.

David J. Zimmer
GOODWIN PROCTER LLP
100 Northern Avenue
Boston, MA 02210
dzimmer@goodwinlaw.com
(617) 570-1192
Counsel for Amicus Curiae
October 5, 2020

2

